                                              AUDIT OF 

                        WISCONSIN DISTRICT OFFICE 7(a) LOANS 


                                     MADISON, WISCONSIN 


                               AUDIT REPORT NO. 8-7-F-020-022 

                                             July 22, 1998 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.




                                                                                                           \
                           U.S. SMALL BUSINESS ADMINISTRATION 

                               OFFICE OF INSPECTOR GENERAL 

                                    Washington, D.C. 20416 





                                                                           AUDIT
                                                                          REPORT
                                                               Issue Date: July 22, 1998
                                                               Number: 8-7-F-020-022


To:            Michael W. Kiser, District Director
               !;rOlin Dis~c1.9-ffice- Madison

From:           eter . N'lc~M~.tOCk, Assistant Inspector General
                       ./.!) "qvd
                for Auditing

Subject:       Audit of Wisconsin District Office 7(a) Loans

      Attached is a copy of the subject report. The report contains two findings with seven
recommendations for the District Office.

        The recommendations in this report are subject to review and implementation of
corrective action by your office in accordance with existing Agency procedures for audit follow­
up. Please provide your management response to the recommendations within 30 days from the
date of this report, using the attached SBA Forms 1824, Recommendation Action Sheet.

       Any questions or discussion of the issues contained in the report should be directed to
Garry Duncan at (202) 205-7732.




Attachment




                                                                                                   I
                                        AUDIT OF 7 (a) LOAN PROCESSING 

                                         WISCONSIN DISTRICT OFFICE 

                                             MADISON, WISCONSIN 



                                                    TABLE OF CONTENTS


                                                                                                                             Page

SUMMARy ........................................................................................................................ i 


INTRODUCTION

           A. Background ....................................................................................................... 1 


           B. Audit Objective and Scope ................................................................................ I 


RESULTS OF AUDIT

Findings and Recommendations

           I. 	SBA 7(a) Guaranteed Loans were not Always Processed,
               Disbursed, and Used in Accordance with SBA Requirements .......................... 2

           2. Loan not Disbursed Within the Required Time Limit.. ..................................... 6 


OTHER MATTERS
           Borrower Misrepresentations .................................................................................. 8

APPENDICIES

           A. - Schedule of Loans Reviewed
           B. - SBA Management Response
           C. - Audit Report Distribution
                                          SUMMARY

        The audit was part of a nationwide review to determine whether 7(a) loans were
processed, disbursed, and used in accordance with Small Business Administration (SBA)
requirements. The Wisconsin District Office was assigned 613 loans valued at $182.5 million
from March 1, 1996 through June 30, 1997. The loans, made to small business concerns within
the state of Wisconsin, were processed by the District Office and the Preferred Lender Program
Processing Center. We selected a random sample of 30 loans valued at $8.9 million for review.

        SBA procedures for lenders and SBA loan officers are intended to reduce risk. Failure to
follow these procedures increases the chance that ineligible or risky loans will be approved. We
reviewed lenders' compliance with 22 such procedures. In the period audited, we determined that
for 15 ofthe 30 loans, lenders did not follow at least one of the procedures reviewed.

       For the 15 loans, the noncompliance with procedures consisted of the following:

       • 	 One loan for C '7, :J was approved for an ineligible purpose, to pay taxes owed by
           the deceased owner's estate. The Code of Federal Regulations (CFR), Part 120,
           requires loan proceeds to be used for operating business purposes such as working
           capital expenses.
       • 	 A lender disbursed loan proceeds for an unauthorized purpose (I loan). The
           Authorization and Loan Agreement (loan a~reement) specifies how loan proceeds
           may be used. For a loan totaling c +- J, the lender improperly disbursed $48,331
           of the loan proceeds to another lender to pay the borrower's mortgage. This payment
           reduced the funds available for completing the construction project.
       • 	 Equity injections were not verified prior to disbursement (2 loans). Without the
           required cash injections, borrowers may have insufficient working capital to operate
           the business. For the two loans, borrowers did not inject a total of $27,320 as
           required by the loan agreement. One of these loans also had an Internal Revenue
           Service (IRS) verification deficiency and is included in the next bullet.
       • 	 Financial information was not verified with IRS prior to disbursement of loan
           proceeds (10 loans). Without verified financial data, loan decisions could be based on
           financial data that is not credible. For one loan totaling L*'  J the lender did not
           verify business financial information with the IRS. The required verifications for the
           other nine loans were made after disbursement.
       • 	 Use ofloan proceeds was not verified (I loan). Without verification by lenders,
           borrowers could use proceeds for unauthorized purposes. For one loan totaling
          C 	 + -:l the lender did not verify use of loan proceeds as required by the loan
           agreement and settlement sheet. Our subsequent review disclosed that the loan
           proceeds were used appropriately.

       • 	 Joint payee checks were not used to disburse loan proceeds for loans totaling
           $560,000 (2 loans). Without the use ofjoint payee checks or other controls, the loan
           proceeds are at risk for improper use. A review of the use of the loan proceeds
           disclosed no problems.
       • 	 Business credit reports were not obtained for loans totaling $376,600 (2 loans).
           Credit reports are necessary to determine the borrowers' credit history and whether the
           borrowers have shown past willingness to pay debts. Our subsequent review
           disclosed satisfactory credit history.
        • 	 Settlement sheets were not completed prior to March 1997 as required by SBA for
            loans totaling $821,000 (3 loans). The deficiencies were not significant enough to
            invalidate the loan guarantees.
        We also identified one loan with a guarantee totaling $615,000 that was not executed and
disbursed by the time specified in the loan authorization. In addition, three borrowers (two loans)
made false statements concerning their criminal histories.

        As of January 31, 1998,25 of the 30 sampled loans were current, 2 were past due, and 3
were undisbursed. Lender responses regarding the loans indicated the deficiencies were due to
both intentional and unintentional loan officer errors, as well as loan officer lack of knowledge of
the SBA requirements.

       We recommend that the Wisconsin District Director take the following actions to protect
 SBA's interests:

        • 	 Rescind the loan approval for one loan before disbursement.
        • 	 Reduce the guarantee percentage for one loan to reflect the ineligible use of loan
            proceeds.
        • 	 Obtain verification of equity injections from lenders or reduce the guarantee
            percentage for two loans to reflect the lack of injection.
        • 	 Require the lender to verify the seller's financial statements for one loan.
        • 	 Re-emphasize to lenders their responsibility to comply with SBA loan requirements,
            including:

                • 	 approving loans and making disbursements only for eligible or authorized
                    purposes,
                • 	 verifying required equity injections,
                • 	 validating financial data with the IRS,
                • 	 verifying use ofloan proceeds,
                • 	 using joint payee checks, when appropriate, and
                • 	 obtaining business credit reports.

        • 	 Cancel the guarantee for one loan that was not disbursed within the required time
            limit.
        • 	 Inform lenders to either request an extension of the disbursement period or cancel the
            loan guarantee when disbursement is not made within the specified time limit.
         In response to a draft report (See Appendix B), the District Director generally agreed with
 the recommendations. The Director, however, stated that action for four loans could be delayed
 until loan purchase after default. Management comments and our evaluation are included on
 pages 6 and 7 of the report.
         The findings in this report are the conclusions of the OIG's Auditing Division based on 

 testing of the auditee's operations. The findings and recommendations are subject to review, 

 management decision, and corrective action by your office in accordance with Agency 

 procedures for follow-up and resolution. 

                                                                                                       i
                                                  11




                                                                                                       I
                                       INTRODUCTION

A.     BACKGROUND

        Audits of the SBA LowDoc Loan Program (a subsection of the 7(a) Loan Program) in
1996 and 1997 showed that lenders and SBA district offices were not always processing loans in
compliance with existing policies and procedures. At the request ofSBA's Office of Financial
Assistance, we initiated an audit of the 7(a) Loan Program to determine if a similar level of non­
compliance exists. Our evaluation will be presented in a summary report combining the results
of eight individual audits. This report presents the audit results for one site.

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses. SBA provides this financial assistance primarily by
guaranteeing loans made by participating lenders to small businesses. To obtain the SBA
guarantee, a lender must have continuing ability to evaluate, close, service, and liquidate loans in
accordance with SBA requirements. A Loan Guaranty Agreement between SBA and the lender
requires the lender to abide by SBA regulations and procedures and allows the lender to request
SBA purchase of borrower defaulted loans.

         Generally, SBA regulations and procedures require both the lender and SBA to review
the borrower's eligibility, repayment ability, management qualifications, character, credit
worthiness, and adequacy of collateral for loans submitted under regular procedures. The most
active and expert lenders qualify for SBNs Certified Lender Program (CLP) and Preferred
Lender Program (PLP), respectively. Under CLP procedures, SBA utilizes the credit
presentation of the lender and makes a credit and eligibility determination. Under PLP
procedures, the Sacramento PLP Loan Processing Center reviews the loan application solely for
eligibility .

B.     AUDIT OBJECTIVE AND SCOPE

         The audit objective was to determine whether 7(a) loans (excluding special programs
such as LowDoc and FA$TRAK) were processed and proceeds disbursed and used in accordance
with SBA requirements. Special loan programs were excluded because the Office of Financial
Assistance only wanted a review of the regular 7(a) loan program. The audit was based on a
statistical sample of30 loans valued at $8.9 million out ofa population of613 loans valued at
$182.5 million made to small businesses and assigned to the Wisconsin District Office between
March 1, 1996 and June 30,1997.

        The criteria used to evaluate loans consisted of 22 procedures selected from SBA's
Standard Operating Procedures. These procedures were selected to facilitate a comparison to the
results of the prior LowDoc audits.

        The auditors reviewed lender and SBA file documentation for each loan in the sample;
interviewed borrower, lender, and SBA district office personnel; and visited businesses to review
records. Field work was performed from October 1997 through January 1998. The audit was
conducted in accordance with Government Auditing Standards.




                                                 1



                                                                                                       I
                                              RESULTS OF AUDIT 


     FINDING 1 	 SBA 7(a) Guaranteed Loans were not Always Processed, Disbursed, and
                 Used in Accordance with SBA Requirements
             SBA procedures for lenders and SBA loan officers are intended to reduce risk. The
     chance that risky or ineligible loans will be approved is increased when these procedures are not
     followed. In our sample, at least one processing or disbursing deficiency was identified for 15 of
     the 30 loans reviewed. Noncompliance with established procedures resulted inC "'-. Jfor one
     loan being inappropriately guaranteed. Corrective actions are necessary to preclude guarantee
     adjustments for four loans totaling $902,700. Adjustments to these loans would allow SBA to
     provide additional guarantees to other small business borrowers totaling $645,600. The
     remaining 10 loans did not require guarantee adjustments because corrective actions had been
     taken.

     Loan Guarantee Approved for and Loan Proceeds were Used for Ineligible Purposes

            SBA approved a loan guarantee for an ineligible purpose and the lender for another loan
     disbursed funds for an ineligible purpose.

             A loan (sample number 3) was approved to provide C.    '*  Jofworking capital to pay
     taxes owed by the deceased owner's estate. The taxes were not the liability of the borrower.
     Title 13, Code of Federal Regulation (CFR), Section 120.120 requires that an SBA loan be used
     for sound business purposes. Payment of estate taxes which are not the liability of the borrower
     does not constitute use of proceeds for sound business purposes and, thus, is an ineligible use of
     proceeds. In response to our draft audit recommendation, the District Office stated that the loan
     will be cancelled.

             Another loan (sample number 12) totaling c ~ J .vas for borrowers to pay for
     building construction or improvements. The participating lender improperly disbursed $48,331
     of the loan proceeds to pay the borrowers' mortgage on their construction site. This payment
     reduced the funds available for completing the construction and was not authorized in the loan
     agreement. Proceeds not used for the purpose(s) specified in the loan authorization are
     considered an ineligible use of the SBA loan. The participating lender stated it was an oversight
     to release the funds and he thought that mortgage payments were permitted under the loan
     agreement. As of January 31, 1998, this loan was current.

     Equity Injections were not Verified Prior to Disbursement

             Guarantees for two loans should either be adjusted or proof of equity injections obtained
     from the lenders. : Lenders did not ensure that required equity injections were made. The loan
     agreement for each of the loans stated that prior to the first disbursement the lender must be in
     receipt of satisfactory evidence (such as invoices, receipts and canceled checks) that the borrower
     and/or guarantor(s) haslhave made the requisite equity injection.

             By not complying with the loan agreement, lenders increased the risk that borrowers may
     not remain committed to the business or the business may not have sufficient cash flow to sustain
     operations. For the two loans, the borrowers did not inject $27,320 as required by the loan
     agreement.

             A loan for ('"    J (sample number 31) was approved in r. -:'<    J to purchase land and
     a building. The loan agreement required an equity injection of $25,000 in cash, as well as


                                                      2



_.
$27,300 in restaurant equipment. The lender stated the equipment was provided but could not
prove the cash injection had occurred. The lender promised to provide the auditor details of the
cash injection but failed to do so. When asked to prove the full cash amount was injected, the
borrower claimed she injected more than the required amount but could not provide evidence of
her cash injection because the business records had been stolen. During our site visit, the
borrower provided support that about $5,000 had been injected into the business. No support
was provided for the remaining $20,000. As of January 31, 1998, the loan was past due.

        A loan to purchase land and buildings was approved in c:.       ~         . J (sample
number 18). The loan agreement required the lender to inject $192,320 into the business. The
lender had evidence that the borrower had injected $185,000, but could not provide support that
the remaining $7,320 was injected prior to disbursing the loan proceeds. As of January 31, 1998,
the loan was current. This loan is also included in the discussion below regarding IRS
verification of financial data.

Financial Information was not Verified Prior to Disbursement
        For ten loans, lenders did not verify business and borrower financial information prior to
disbursement as required by the loan agreement. The guarantee for one loan may need
adjustment due to unresolved risks resulting from the lack of IRS verifications of financial
information provided by the borrowers. SBA Policy Notice 9000-941 required lenders to obtain
IRS verification of fmancial information of the small business concern or for a business being
purchased prior to loan disbursement. This requirement ensures the financial information
submitted by small businesses and used by SBA to make loan decisions is credible. The required
verifications for the other nine loans were made after the loans were disbursed or upon our
request to the lender.

         A loan fore ¥      :J (sample number 6) was approved in C:. .  *'          :J to purchase a
gas station (land and building). Although required to verify the accuracy of the previous owner's
financial information, the lender stated it did not do so because the purchased gas station was a
small portion of the seller's holdings. Since the seller filed a consolidated tax return, obtaining
an IRS verification would not have enabled the lender to adequately verify the seller's financial
information for the gas station. The lender, however, did not use an alternative method, such as
obtaining copies of financial statements prepared by an independent accountant or supporting
schedules used to prepare the consolidated tax return, to verify seller financial information. As a
result, neither the lender nor SBA had reasonable assurance that the financial information
submitted in support of the loan was correct. As of January 31,1998, the loan was current.

       Lenders did not verify business financial information before disbursing nine other loans
(sample numbers 2. 4. 5. 12. 13. 18. 24. 29. and 30). The verifications were made either after the
loans were disbursed or at our request. As of January 31, 1998, eight of these loans were current
and one was past due.

Use of Loan Proceeds not Verified
       The lender for one loan did not verify the use of proceeds as required. SBA Form 1050
(Settlement Sheet) requires the lender to certify that the loan proceeds are disbursed and used in
accordance with the loan authorization. Verification of the use ofloan proceeds prevents a
borrower from using loan proceeds for unauthorized purposes.

      One loan (sample number 25) for t Jr Jwas approved to purchase machinery,
equipment, furniture and fixtures. The lender did not verify use of the loan proceeds. The lender


                                                 3


                                                                                                       I
accepted the borrower's detailed schedules of leased equipment purchases and did not require
copies of the invoices or receipts. As a result, the lender could not prove the loan proceeds were
used for authorized purposes. We determined that the loan proceeds were used appropriately.
As of January 31, 1998, this loan was current.

Required Joint Payee Checks were not Used
        Joint payee checks were not used to disburse two loans (sample numbers 2 and 25)
totaling $560,000. Disbursements of ('               ~ .      '.           ,), of loan proceeds
designated as other than working capital were made payable to the borrowers. SOP 70 50 2,
paragraph 3.F(l), and SBA Form 1050 require that the lender use joint payee checks to disburse
loan proceeds when disbursements are for other than working capital. By not complying with
this SBA loan requirement, the lenders increased the risk that the loan proceeds could be
improperly used. A review of the use of the loan proceeds disclosed no problems. As of January
31, 1998, both loans were current.
Business Credit Reports were not Obtained
        Lenders did not obtain business credit reports for two loans (sample numbers 18 and 24)
totaling $376,600. SBA requires lenders to evaluate a borrower's credit history as part of the
creditworthiness determination. In addition, the Office of Management and Budget Circular A­
129 requires that credit histories of applicants be verified through credit reports. Although our
subsequent review of the borrowers' credit reports disclosed no significant credit problems, the
risk of approving a loan for an applicant who was not creditworthy was increased by the lender's
noncompliance. As of January 31, 1998, both loans were current.
Settlement Sheet Deficiencies
        The settlement sheets for three loans (sample numbers 1, 5, and 12) totaling $821,000
were not prepared properly. The settlement sheet states that it must be signed and returned to the
SBA immediately after each disbursement. The settlement sheet for one loan (sample number 1),
was signed but not disbursed for over 30 days. The lender stated that settlement sheets
sometimes are signed at loan closing and completed when the disbursements are made. For two
other loans (sample n,umbers 5 and 12), the settlement sheets were not prepared because the
lenders were not knowledgeable of the SBA requirement to prepare a settlement sheet. By not
complying with this requirement, the lenders violated one of the controls established to ensure
proper disbursement and use ofloan proceeds. These deficiencies, however, were not serious
enough to invalidate the loan guarantees. As of January 31, 1998, the three loans were current.
Relationship of Loan Deficiencies to SBA Oversight
        The majonty ofloans with deficiencies were originated when SBA had limited or no
oversight of the lender's loan processing and disbursing. For certain loan processing and
disbursing actions, an SBA district office would normally be unaware of how and when the
action was done because no documentation was required to be submitted to SBA. These actions
include, but are not limited to, equity injections, IRS verifications, and use of loan proceeds.
District offices also are unaware of almost all actions for loans processed under PLP procedures.
       Of the 23 deficiencies identified, 20 were processing or disbursing actions not normally
reviewed by or reported to SBA under existing procedures. As a result, the deficiencies
generally would not be identified by SBA until after the loan defaulted and the lender requested
the guarantee be honored. The remaining three deficiencies should have been identified during
the SBA loan officer's review.


                                                4
      Reasons for lender deficiencies
              Because lenders were responsible for most of the deficiencies identified, we asked why
      the deficiencies occurred. Lenders provided the following reasons:

             Loan officer chose to use other than SBA policy                12 deficiencies
             Loan officer made an unintentional error 	                      4 deficiencies
             Loan officer lacked knowledge of the SBA policy                 3 deficiencies
             Loan officer disagreed there was a deficiency 	                 1 deficiency

             This issue will be considered in a summary report because actions to minimize SBA's
      risk must be implemented agency-wide.

      Recommendations
             We recommend that the Wisconsin District Office Director take the following actions:

             LA. 	 Rescind the   c:   ~   ;J loan   approval for sample number 3.

             LB. 	 Reduce the guarantee percentage for sample number 12 to reflect the ineligible
                   use of $48,331.

             I.C. 	 Obtain verification of equity injections from lenders or reduce the guarantee
                    percentage for sample numbers 18 and 31 to reflect the lack of injection of
                    $27,320.

             I.D. 	 Require the lender to obtain copies of financial statements prepared by an
                    independent accountant or the supporting schedules for the consolidated tax return
                    from the seller for sample number 6 to determine the accuracy of the financial
                    information.

             I.E. 	 Re-emphasize to lenders their responsibility to comply with SBA loan
                    requirements, including

                     •	     ensuring loans are approved and disbursements made only for eligible or
                            authorized purposes,
                     •	     verifying equity injections when required and properly documenting the
                            injection in the loan file,
                     •	     validating financial data with the IRS prior to disbursement,
                     •	     verifying use of loan proceeds,
                     •	     using joint payee checks for disbursement of loan proceeds other than for
                            working capital, and
                     •	     obtaining business credit reports.
      Wisconsin District Director's Response
             The District Director agreed with the finding and recommendations.



                                                          5


~."
            -~----------------------------------....,




         For sample number 3, the lender requested that the loan be canceled.

        For sample number 12, the loan file will be reviewed to determine if SBA would have 

 approved the use of proceeds and if a Form 327 loan modification action is needed. If a Form 

 327 action is not appropriate, the lender will be notified that SBA would seek to adjust the loan 

 guarantee to reflect the ineligible use of proceeds if this loan comes in for purchase. 


         For sample numbers 6, 18, and 31, the District Office will either repair the problems 

 through Form 327 actions or notify the lenders that any loan purchase will be adjusted to reflect 

 the lenders not verifying tax returns and not requiring evidence that the equity was injected. 


         The District will develop a series of articles in its monthly newsletter to all lenders that 

 address approving loans and making disbursements only for eligible purposes, verifying required 

 equity injections, validating financial data with the IRS, notifying SBA when adverse changes in 

 borrower conditions occur, verifying use ofloan proceeds, using joint payee checks when 

 appropriate, and obtaining credit reports. Since SBA rescinded the requirement settlement 

 sheets, this item will not be discussed in a.newsletter article. 


 Evaluation of the Wisconsin District Director's Response

         The District Office response is acceptable.

         We believe, however, that immediate steps are needed to protect SBA's interests for 

 sample numbers 6, 12, 18, and 31. There is no assurance that SBA will identify the deficiencies 

 for these loans during a purchase process. The severity of the deficiencies warrants the need for 

 action to be taken to enforce lender compliance now. As a result of the Low Documentation 

 Loan audit, the Acting Associate Administrator for Financial Assistance and the OIO are 

 currently identifying deficiencies that are so material or serious that denial or repair of the 

 guarantee prior to a request to purchase is warranted. This will provide the basis for a policy 

 stating the circumstances when SBA will notify a lender, prior to loan default or a purchase 

 request, that SBA will not honor or will request a repair of the guarantee. We will, therefore, 

 postpone audit evaluation of management comments regarding these loans until audit follow-up 

 on the LowDoc audit is completed. 


       Based on the District Director's responses, we dropped an earlier recommendation to re­

 emphasize to lenders their responsibility to complete and forward settlement sheets to SBA. 


 FINDING 2 A Loan was not Disbursed within the Required Time Limit

           A loan fore  *       :Jwas not disbursed within the time limits specified in the loan 

   authorization agreement. Neither the lender nor the district office identified the expired loan and, 

   therefore, action Was not taken to cancel the guarantee. If issued, the guarantee for this loan 

   would be based on outdated information. Loan cancellation would allow SBA to provide 

Co    ¥     ;) in guarantees for other loans.

         Each loan applicant provides financial and background data to indicate their credit­

 worthiness and repayment ability. Lenders supplement this information with credit reports and 

 tax information from the IRS. Because this information is a basis for loan approval, it should be 

 accurate and timely. SOP 50 10 3 requires personal financial information be provided within 90 

 days of the application date. Also, an interim business fmancial statement for the current period 

 should be prepared when the year-end business financial statement is not within 90 days of the 

 application date. 




                                                   6
                                                                                                            ,




                                                                                                            I
        Once the loan application is approved, SBA, the lender, and the borrower execute a loan
agreement containing the conditions and requirements for the loan. Among the conditions and
requirements are time limits for the first and final disbursements of loan proceeds. These time
limits cannot be exceeded without prior SBA approval.

        The loan forC 11'. ::J (sample number 28) was approved for the purchase of machinery,
equipment, furniture and fixtures, and construction or improvement of buildings. The loan
proceeds were required to be fully disbursed no later than 12 months from the date of the loan
approval, which was 1:        ~           ?The lender stated the loan had not been disbursed
because the borrower was unable to raise the required equity injection of $300,000. As a result,
the loan agreement for the c:*.    .:J guarantee had not been executed nor had disbursements
been made as of April 15, 1998, more than 15 months after loan approval. The guarantee should
be rescinded and the borrower required to submit another application if the loan is still needed.

       By not identifying and canceling the loan, SBA risked disbursement of loan proceeds based
on outdated credit and fmancial information. In addition, guarantee authority that could have been
applied to other loans remained obligated unnecessarily.

        After discussing this situation with District Office personnel, additional discussions
between SBA and the lender were held and the lender instructed to request an extension which the
District Office approved. Final disbursement for the loan has been extended to September 30,
1998.

Recommendations
       We recommend that the Wisconsin District Director take the following actions: .

       2.A. 	 Cancel the guarantee for sample number 28 because the loan was not disbursed
              within the required time limit.

       2.B. 	 Inform lenders to either request an extension of the disbursement period or request
              cancellation of the loan guarantee when disbursement is not made within the
              specified time limit.

Wisconsin District Director's Response
       The District Director stated that it was not necessary to cancel the guarantee because
other corrective action was taken to resolve the reported problems. On April 21, 1998, the lender
requested an extension of the loan disbursement date because of construction delays. Further, the
lender has confirmed that there have been no adverse changes in the business finances and the
required equity injection has been made .
                 .
       The District Director further stated that he will include an article in the monthly
newsletter which informs lenders to request an extension or cancellation of the loan guarantee
when disbursement is not made within the specified time limit.

Evaluation ofthe Wisconsin District Director's Response
       The District Director's corrective actions are responsive to the recommendations.




                                                7	                                                   ,



                                                                                                     \

                                         Other Matters

Borrower Misrepresentations

        The auditors requested criminal history reviews for the principals of each loan. The
results of the criminal history checks showed that three borrowers (two loans) did not state they
have a criminal history when, in fact, they do. Their histories, however, did not include offenses
which were serious enough to preclude financial assistance from SBA.




                                                 8


                                                                                                     \
I
                                                                                                        Appendix A

                 Schedule of Loans Reviewed and Their Status as of January 31, 1998


                                                                                                       TYPE

     1   r                                                                    ..,   Current           CLP
    2                                                                               Current           PLP
    3                                                                               Not Disbursed     CLP
    4                                                                               Past Due          REG
    5                                                                               Current           REG
    6                                                                               Current           REG
    7                                                                               Current           CLP
    8                                                                               Current           CLP
    9                                                                                 ------------
    10                                                                                Current         PLP
    11                                                                                Current         REG
    12                                                                                Current         REG
                                                                                      Current         PLP

                                         *'
    13
    14                                                                                Current         CLP
    15                                                                                Current         REG
    16                                                                                Current         CLP
    17                                                                                Current         REG
    18                                                                                Current         CLP
    19                                                                                Current         CLP
    20                                                                                Current         REG
    21                                                                                Not Disbursed   REG
    22                                                                                Current         REG
    23                                                                                Current         PLP
    24                                                                                Current         CLP
    25                                                                                Current         REG
    26                                                                                Current         CLP
    27                                                                                Current         REG
    28                                                                                Not Disbursed   REG
    29                                                                                Current         PLP
    30                                                                                Current         CLP
    31       L                                                                J       Past Due        REG


                                                                ¥Ex:, '-I
                                                                                                    AppendixB
                                 U. S. SMALL BUSINESS ADMINISTRATION
                                    WISCONSIN DISTRICT OFFICE· MADISON
                                  212 EASTWASHINGTONAVENUE. ROOM 213 

                                         MADISON, WISCONSIN S3703 

                                      ~S26l    • ta.2M-SS41 (FAX). 601-264-533J (l'DD)



June 26, 1998




Mr. Peter L. McClintock
Assistant IDspcctor General
U.S. Small Business Administration
Office of IDspector General
Washington, DC 20416


RE:     Audit ofWisconsiD District Office 7(8) LoaDs
        Draft Audit Report No. 8-8-F-020 dated lune 4, 1998


Dear Mr. McClintock:

This is my written response to the Draft Audit Report of the Wisconsin District Office.

1 .A.   In response to your recommendation to rescind the t                              "*"
              J
            :;tthe lender has requested that the loan be canceled. This loan will be cancelled. therefore there
        is no need to rescind the loan guarantee.

1.B.    In response to your request to reduce the guaranty percentage fore                      *
                                                                                              'J to reflect
        the borrowers ineligible use of proceeds. the Wisconsin SSA propos.. to review the file to
        determine if we would have approved this use of proceeds had this been requested Initially or during
        the course of construction. If we would have approved this transection we will complete. 327
        action to modify the loan authorization. If we would not have approved it. we will notify the
        lender that if this loan comes in for purchase the SSA would seek an edjustment to reflect the harm
        that wss done by the lender not disbursing the loan in accordance with the authorization. This is
        the procedure outlined in SOP 50 51 2.

1 .C.   In response to your request for a verification of equity injections from lender or a reduction of the
        guaranty percentage for c               if:                     '} the Wlaconain SSA propoMa to
        determine if this problem cen be repaired or corrected. If It cen be repaired the SSA will complete s
        327 repairing. the transaction. If his cannot be repaired or c:omtcted the SSA wiN notify the lender
        that if a purcihase is requested by the lender an adjustment would be recommended on the purchase
        to reflect the harm that was done by the lender not requiring evid8f)ce that the equity _Injected.
        This is the procedure outlined in SOP 50 51 2.

1.0.     In response to your request to obtain copies of financialatatemenu prepared by an Independent
        accountant or the supporting schedules for the consolidated tax return from the seller for :I::
              J and your rscommendation that SSA obtain a guarantee r...... or an indemnification
        agreement to reflect the lack of IRS verification of tax return of the seller's financial Information. the
        Wisconsin SSA proposes that we determine if this problem can be repaired or corrected. If It can be
        repaired the SSA will complete a 327 repairing the transaction. If this problem cannot be repaired
        or corrected the SSA will notify the lender that if a purchase is requested by the lender an
        adjustment will be recommended on the purchase to reflect the harm that was done by the lender
        not doing the verification of the tax return of the seller's financial information. This is the procedure
        outlined in SOP 50 51 2.
                                                                                           AppendixB




1.E.      The Wisconsin SBA will be doing a series of amcles in our monthly newsletter (that goes to all 

          Wisconsin SBA lendersl on the following catagories: 


•      Approving loans and making disbursements onlv for eligible purposes
•      verifying required equity injections
•      validating financial data with the IRS
•      notifying SBA when adverse changes in borrower conditions occur
•      verifying use of loan proceeds
•      using joint payee checks. when appropriata 

•      obtaining credit ilIpcJitl 


1 .E.     In response to vour comment to train lenders on completing end sending senlement s'-ta to SBA. 

          SBA Policy notice 5000-511 states that SBA form 1050 Settlement Sheet(sl are no longer required 

          effective March 1997. 


2.A.    In response to vour recommendation to cancel the guarantee for.r:                            J, the 

following additional data is provided: 


The Wisconsin SBA has advised the lender. in a letter dated 1116197. not to close on the ~
financing due to the borrowers inability to secure n_.eary financing that was part of the projecL The
authorization allowed 12 months for full dlebursement to t:. ¥      :I Several mora dlscuSlions _ _ held with
the lendar and packager to resolve the situation of the project cost adjustment and request for e.-.sion.
The project financing problems were addrelSed and agree with a 327. Lettars were sent to the ...... on
February 11. 1998 and April 14. 1998 reque8ting a writtBn request for extension. A lettar was received
requesting an exteneion on April 21. 19.98 indicating construction dalava caused the need for an extension
and that no proceeds had been disbursed under the SBA loan authorization. The request for axtanaion was
approved with final dllbureement extended to Septambar 30. 1998. This is allowed In SOP 50-10 7d paga
172. which statas that SBA must insure that no adverse change has happened.. At that time the businalS 

did not have financial statementa as this is a start-up busin81S so there were no statamenta to review. Also 

the SBA loan officer confirmed through dlscUlSions with the lender and packager that there was no adverse 

change. All equity was raised and the loan amount was changed per 327. The Wisconsin SBA -.lei 

disagree with the request to cancel the guarantee for t:           ~                "1 


2.B. 	    In responlB to your requeat to inform landers to either request an extansion of the d~                

          period or request cancellation of the loan guuantee when disbursement is not made within· apecified 

          time limit. the Wisconsin SBA will Include an amele on this topic in OW' monthly naWIIatW. 

                       ~.


ThaDk you for the opJiOrtumty to cornmeat OD the find;nss and recommendations of the audit team. Il,au haw 

any questions or commeuts, please CODtact me at (608) 264-S268. 


SiDccrcly.


~~./s.1 u<
 MiCbaeIW.~
District Director


Cc: Acting Associate Administrator for Financial Assistance
                                                           *-   1:;>< ,
                                                                                                                    ,




                                                                                                                    \
.. 

                                                                                                           AppendixC


                                       OFFICE OF INSPECTOR GENERAL 


                                          AUDIT REPORT DISTRIBUTION 



           Recipient                                                                                Number of Copies

       AdUrlinistrator------------------------------------------------------------------------------------------- 1

       Deputy Administrator --------------------------------------------------------------------------------- 1

       {Jeneral {;ounsel----------------------------------------------------------------------------------------2

       Associate AdUrlinistrator for
        Field Operations --------------------------------------------------------------------------------------1

       Associate Deputy Administrator for
        {;apital Access ---------------------------------------------------------------------------------------- 1

       Acting Associate AdUrlinistrator for
        Financial Assistance --------------------------------------------------------------------------------- 1
       Office of the Chief Financial Officer-------------------------------------------------------------- 1
        Attn: leffBrown

       District Director,
        Wisconsin District Office --------------------------------------------------------------------------- 1

       {Jeneral Accounting Office --------------------------------------------------------------------------- 1
